TODAY CARDTM CREDIT CARD AGREEMENT
Effective Date: 9/16/2020
There are three parts to this Today Card Credit Card Agreement:
1. The Today Card Pricing Information,
2. Things You Should Know About This Card, which appear on your card mailer, and
3. The Today Card Customer Agreement below.
Please read the entire Today Card Credit Card Agreement carefully, as it contains important
information related to your Today Card Credit Card.

This Agreement contains an Arbitration provision. Unless you reject the Arbitration
provision within sixty (60) days of account opening, it will have a substantial effect
on your rights if you have a dispute with us. See Section 24 below for details.
TODAY CARD PRICING INFORMATION

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

32.25%. These APRs will vary with the market, based on the

Paying Interest

Your payment due date is at least 25 days after the close of each
billing cycle. We will not charge you any interest on new
purchases if you pay your entire new balance in full by the
payment due date each month.

Minimum Interest Charge

If you are charged interest, the interest charge will be no less
than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection bureau at
http://www.consumerfinance.gov/learnmore.

Prime Rate.

Fees
Set up and Maintenance Fees
•

Annual Fee

$120 (billed at $10.00 monthly)

•

Additional Card Fee

$10 per card (one-time fee for card requested for authorized
users of the account)

Transaction Fees
•

Foreign Transaction Fee

3% of each transaction in U.S. dollars

Version 2.0

Penalty Fees
•

Late Payment

Up to $40

•

Returned Payment

Up to $40

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
transactions).” See your Credit Card Agreement and Disclosure for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in your Credit Card Agreement.
THINGS YOU SHOULD KNOW ABOUT THIS CARD
Can You Change My Account Terms? We can change the terms of your account as permitted by law.
When required, we will send you notice before doing so.
How Do You Calculate Variable Rates? The APR is a variable rate equal to the Prime Rate plus the
margin shown on the card mailer. The “Prime Rate” is the U.S. Prime Rate published in The Wall Street
Journal on the last business day of the month. An increase or decrease in the Prime Rate will cause a
corresponding increase or decrease in your variable APR on the first day of your billing cycle that begins
in the month immediately following the change in the Index. If your APR increases, the amount of
interest charge you will owe and the minimum payment may increase.
How Do You Calculate my Interest Charge? We calculate your interest charge by multiplying the
average daily balance (calculated as described in your Credit Card Agreement) by the applicable Daily
Periodic Rate, and then multiplying that by the number of days in your billing cycle.
How Can I Avoid Paying Interest Charges? If you pay your new balance listed on your statement in full
by the payment due date, we will not charge interest on any new transactions that post to the purchase
balance. If you have been paying your account in full with no interest charges, but then you do not pay
your next new balance in full, we will charge an interest charge on the portion of the balance that you
did not pay. This means that you may owe interest charges even if you pay the entire new balance one
month, but did not do so for the previous month.
TODAY CARDTM CREDIT CARD AGREEMENT
This Customer Agreement including any changes to it (the “Agreement”) contains the terms that govern
our issuance and your use of your card. By applying for, activating and using your account, you are
agreeing to comply with this Agreement. The Today Card is a consumer credit product intended for
personal, family or household purposes.
1.
DEFINITIONS: The meanings of the terms you see in italics are defined below:
• Account is your Today Card credit card account with us.
• Application is the submission of your financial information for the purposes of obtaining an
extension of credit. It is the credit application you submitted to us to obtain your account.
• APR is Annual Percentage Rate.
• Authorized user is a person that you have permitted to make purchases under the account but is
not responsible for repayment.
• Available credit is the amount of your credit limit available for you to use to make purchases.
• Balance is the total amount you owe us on your account.

Version 2.0

• Billing cycle is the interval between the days or dates of your statements. The billing cycle may
vary in length, but it occurs monthly, even if a statement is not required.
• Business day is the days we are open for business. Typically, Monday through Friday, excluding
federal holidays.
• Card is any Today Card credit card associated with your account. This includes all renewals and
substitutions. It also means any other access device for your account that allows you to obtain
credit, including any account number.
• Credit limit is the maximum amount of credit we have approved for your account.
• Fees are charges imposed on your account not based on the APR.
• Grace period is the date by which or the period within which any credit extended may be repaid
without incurring a finance charge due to a periodic interest rate and any conditions on the
availability of the grace period.
• Interest charge is any amounts billed to your account based on the application of APR.
• Minimum payment is the amount you agree to pay each billing cycle to keep your account
current.
• Payment due date is the date your payment is due, as provided in each of your statements.
• Payment method is the instrument by which you make your payment. We accept payment in
U.S. dollars, by electronic payment (ACH or debit card) or by mailing your personal check or money
order, along with the payment stub from your statement, to the address shown on that statement.
• Purchase is a purchase of goods or services using your card.
• Statement is the periodic statement you will receive for each billing cycle, showing the
transactions and fees and interest charges during that billing cycle.
• We, us or our is Capital Community Bank, the issuer of the Today Card, and its agents,
authorized representatives, successors, and assignees.
• You or your is each person who applied for and opened the account, any person who agrees to
be responsible for paying the account, and any person responsible for complying with this
Agreement.
A.
YOUR ACCOUNT
2.
DOCUMENTS: The following documents govern your account with us:
•
this Agreement;
•
all statements;
•
any privacy notices;
•
all disclosures and materials provided to you before or when you opened your account;
•
any other documents and disclosures relating to your account, including those provided
online and on your card mailer; and
•
any future changes we make to any of the above, to the extent permitted by law.
3.
ACCOUNT INFORMATION: We need certain information about you to manage your account,
including:
•
your legal name;
•
a valid U.S. mailing address (your residence);
•
your date of birth;
•
your Social Security number or other government identification number;
•
your telephone number(s); and
•
your employment and income information.
You must tell us when this information changes. We may ask you for additional documents to verify any
changes. We may restrict or close your account if we cannot verify your information, or if you do not
provide it as requested.

Version 2.0

4.
VERIFICATION OF INFORMATION: You authorize us to obtain and/or use information about you
from outside third parties, including credit reporting agencies, to: (1) verify your identity; (2) determine
your income and creditworthiness when you apply; (3) verify your current creditworthiness in order to
present future credit limit adjustments; (4) qualify you for special offers; and (5) collect amounts you
owe.
5.
CREDIT LIMIT: The amount of your credit limit is disclosed to you on your card mailer and will
also be shown on each of your statements. If you make all your payments on time, meet our debt-toincome requirements, keep your account in good standing and maintain your credit profile, you may be
eligible to receive future credit limit increases. We have the right to change your credit limit from time to
time, and if we do so, we will tell you. You agree not to make any purchase that would cause your
outstanding balance to exceed your credit limit. We may, but are not obligated to, extend credit to you
in an amount that exceeds your credit limit. You must pay us on demand any amount of credit we
extend that exceeds your credit limit. If we extend credit over your credit limit, we will not be required
to do so again, and it is not a waiver of any of our rights. We may restrict your ability to make additional
purchases if you exceed your credit limit.
6.
SERVICING COMMUNICATIONS: By providing us with your telephone number(s), you consent
and authorize us to contact you regarding your account at such number(s). We may contact you by using
any lawful means of communication, including, but not limited to, calls placed to your mobile or other
phone using an automated dialing service, pre-recorded message or text message. Standard text
messaging and/or calling charges may apply. By providing us with your e-mail address, you agree to
receive correspondence electronically from us. We may communicate with you by e-mail for any lawful
business purpose. You authorize us to listen to and record telephone calls with you to evaluate the
quality of service or for any other lawful purpose, if permitted under applicable law.
At application you provided your consent to receive electronic disclosures. You must notify us if your,
email address changes. To notify us of your new email address, please update your contact information
on the Personal Information page of your online account at www.todaycard.com, or call us at 1-833-2042600. You may obtain a paper copy of a Disclosure we have provided by; printing it yourself, calling 1866-686-2123 or writing us at: PO Box 84032 Columbus, GA 31908-4032. There is no fee for the delivery
of paper copies of any Disclosure provided to you electronically under this agreement, excluding a
statement, for which you will incur a Paper Statement Fee. You have the right to withdraw your consent
to receive disclosures electronically; however, if you do you will incur a Paper Statement Fee per
statement that we mail to you. Note: that it may take up to the three business days from receipt to
process your withdrawal request.
7.
CARD USAGE: You may use your account to make purchases of goods or services from
merchants where the card is accepted. Each purchase you make will reduce your available credit until it
is repaid. You may not use your card for any illegal purposes. You agree that we will have no liability if
(1) a merchant refuses to honor your card, (2) technical difficulties prevent a transaction from being
authorized, (3) authorization is declined because your account is over the credit limit or delinquent, or
(4) credit has been restricted because of any term of this Agreement.
8.
AUTHORIZED USERS: At your request, and at our discretion, we may issue an additional card in
the name of an authorized user. Such card may have a different card number but can be used to make
purchases under your account. By designating an authorized user, you agree that (1) you will be solely
responsible for the use of your account by an authorized user, including any transactions made by the
authorized user and any interest charges or fees that result; (2) we reserve the right to terminate the
privileges of an authorized user; and (3) you can request the removal of the authorized user by
contacting us at any time, as outlined below. If we receive conflicting instructions from one or more
users of your account, or if we have reason to believe there is a dispute between users, we may: (1)
refuse to act on any conflicting instructions; (2) restrict the account and deny access to all users until the

Version 2.0

dispute is resolved; or (3) terminate the account. We may allow you to set different spending limits for
authorized users (up to the maximum credit limit of your account), and any transactions will be
separated by authorized user on your statement.
Removing an authorized user: If you want to remove an authorized user from your account, you must
contact customer service at 1-866-686-2123 to request their removal. You also must immediately destroy
all cards in their possession and cancel any arrangements they may have set up on your account. They
will be able to use your account until you have notified us that you are removing them from your
account. During this time, you will still be responsible for all amounts they charge to your account. You
will be responsible even if these amounts do not appear on your account until later. Authorized users
may remove themselves from your account upon request. We reserve the right to remove them from
your account for any reason. To remove them from your account, we may close your existing account
and issue a new card with a new account number.
9.
LOST OR STOLEN CARDS: If any card is lost or stolen, or if you believe your account may be used
without your authorization, you must notify us immediately by calling us at 1-866-686-2123 or writing us
at P.O. Box 84032, Columbus, GA 31908-4032. You will not be liable for any unauthorized use that
occurs after you notify us. You may, however, be liable for unauthorized use that occurs before your
notice to us.
10.
FOREIGN CURRENCY TRANSACTIONS: If a transaction is made in a foreign currency, the
company processing that transaction will convert the transaction into a U.S. dollar amount, and we will
charge your account for the converted amount. The currency exchange will be done by a method and at
a rate determined by the company that processes the transaction. The exchange rate in effect on the
processing date may be different from the exchange rate in effect on the transaction date or the posting
date. If you make a return or get a refund, the same procedures apply.
11.
USING A PIN: We may give you a personal identification number (PIN) that may be needed for
some foreign transactions. The PIN cannot be used for cash advances. For security reasons, you may
have to provide the PIN before you are able to use your card. Keep your PIN secure. Do not write it
down, give it to anyone, or keep it with your card. If you lose your card or believe the confidentiality of
your PIN has been compromised for any reason, you must contact Customer Service at 1-866-686-2123
immediately.
12.
SPECIAL OFFERS: We may, at our discretion, make special offers to you at any time. Such offers
may apply to all transactions or balances on your account, or only to some transactions or balances. We
will provide to you the terms of any special offer and tell you how they differ from this Agreement.
Except as provided in any special offer, the rest of this Agreement will still apply to your account.
13.
CREDIT REPORTING: We may report information about your account to credit bureaus and
others. Late payments, missed payments, or other defaults on your account may be reflected in your
credit report. Information we provide may appear on your and the authorized users’ credit reports.
If you believe that we have reported inaccurate information about your account to a credit bureau or
other consumer reporting agency, notify us in writing at Today Card, Attn: Disputes, P.O. Box 84032,
Columbus, GA 31908-4032. When you write, tell us the specific information that you believe is incorrect
and why you believe it is incorrect.
14.
CLOSING OR SUSPENDING YOUR ACCOUNT: You may contact Customer Service at 1-866-6862123 to ask us to close your account at any time for any reason. We may reduce the credit limit or
terminate your ability to make purchases or receive additional credit under this Agreement at any time
without notice, unless notice is required by law, even if you are not in default. If we close or suspend
your account for any reason, you must stop using your card. You must also cancel all recurring billing
arrangements set up on the account. If we close or permanently suspend your account, you must
destroy all cards.

Version 2.0

If your ability to receive additional credit under this Agreement is terminated, either by you or by us,
your obligations and our rights under this Agreement remain effective until all amounts due under this
Agreement have been paid in full. If you are not in default at the time of termination, you may pay off
any balance under the terms of this Agreement that apply at that time.
15.
DEFAULT: You will be in default under this Agreement if any of the following events occur:
(1) you fail to make any payment required under this Agreement when due; (2) you fail to perform any
of your obligations under this Agreement; (3) you exceed the credit limit or available credit according to
our records; (4) you provide false, inaccurate or misleading information to us; (5) any action is taken by
or against you under any bankruptcy or insolvency laws; (6) you are declared incompetent or are
deceased; (6) you fail to maintain the security of your account; (7) you use any robot, software, other
automatic device, or manual process to disrupt the functionality or compromise the security of our
website and systems; or (8) anything else happens that causes us, in our sole discretion, to reasonably
believe that your account may not be repaid.
If you default, all amounts you owe under this Agreement will become immediately due and payable in
full. You also must also destroy all cards issued to you in connection with the account. Default does not
release you from any obligation you have agreed to under this Agreement. After default, your
obligations and our rights under this Agreement will remain effective until all amounts due under this
Agreement have been paid in full.
B.
BILLING, FEES & STATEMENTS
16.
INTEREST, FEES AND CHARGES
• Grace Period; Paying Interest: Your payment due date is at least 25 days after the close of each
billing cycle. If you pay the new balance, as provided on your statement, in full by the payment due
date on your statement, we will not charge interest on any new transactions that post to the
purchase balance. If you have been paying your account in full with no interest charges, but then fail
to pay your next new balance in full, we will charge interest on the portion of the balance that you
did not pay.
• Computing Interest: The interest charge calculation begins on the date a transaction is made,
subject to any applicable grace period. Interest charges accrue on every unpaid amount until paid in
full. We use a method called ‘average daily balance (including new purchases)’ to calculate interest
charges. This balance is figured by adding the outstanding balance (including new purchases and
deducting payments and credits) for each day in the billing cycle, and then dividing by the number of
days in the billing cycle. If you are charged interest charges, the charge will be no less than $1.00.
• Interest Rate: We calculate the Daily Periodic Rate by dividing the applicable APR by 365. The
interest rates that apply to your account are shown on the account Opening Disclosures that
accompany your card mailer and each statement. The APR is a variable rate equal to the Prime Rate
plus the margin shown on the card mailer. The “Prime Rate” is the U.S. Prime Rate published in The
Wall Street Journal on the last business day of the month. Your APR is variable and can go up or
down as the index for the rate goes up or down. If we increase your APR for any other reason, we
will notify you as required by law. If your APR increases, the amount of interest charges you will owe
and the minimum payment may increase.
• Other Charges and Fees: You agree to pay the following fees, as applicable:
o Set-Up and Maintenance Fees:
- Annual Fee. The amount of your annual Fee is shown on your card mailer. The annual
Fee will be billed to your account starting when we issue the card and will continue
throughout the duration of your account. Payment of the fee is a condition for
maintaining the account. The fee will be charged regardless of whether you use your
account and is not refundable even if your account is closed for any reason by either

Version 2.0

you or us. We may, at our discretion, elect to reduce your annual fee for on time
payment history.
- Additional Card Fee. $10.00 for each additional card requested for authorized users of
the account.
o Transaction Fees:
- Foreign Currency Transaction Fee. Three percent (3%) of the U.S. dollar amount of any
transaction made in a foreign currency. We may charge this Fee for each transaction
(including returns and refunds) at the time the transaction is posted to your account.
For additional information, see Section 10 - Foreign Currency Transactions above.
o Penalty Fees:
- Late Payment Fee. Up to $29.00 if we do not receive at least the minimum payment by
the payment due date (or the next business day if your payment due date is not on a
business day). We may charge up to $40.00 for the second late payment within the
same or the next six (6) billing cycles. This fee will never be more than the full amount
of the minimum payment on your previous statement.
- Returned Payment Fee. Up to $29.00 if a check or similar instrument or any debit for
payment on your account is returned unpaid for any reason. We may charge up to
$40.00 for the second payment that is returned unpaid within the same or the next six
(6) billing cycles. This fee will never be more than the full amount of the minimum
payment on your previous statement.
o Other Fees:
- Paper Statement Fee. $5.00 for each paper copy of a monthly statement requested.
Fast Card Fee. $25.00 for expedited processing of a new or additional card.
17.
STATEMENTS: We will send you a statement at the end of each billing cycle if your account then
has a credit or debit balance, or we are required to do so by applicable law. You should review your
statement as soon as you get it and tell us immediately about any errors or questions you have (as
provided in Section 18 - Your Billing Rights below). Along with other information, each statement will
show all transactions during your billing cycle, your new balance, the minimum payment, and your
payment due date. Your statement is available electronically at www.todaycard.com. We will send
notification of your statements to the most recent email address and your mailing address if you choose
to receive paper statements. You agree to notify us promptly of any changes to your address or email
address.
18.
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act
What to do if you find a mistake on your statement:
If you think there is an error on your statement, write to us at P.O. Box 84032, Columbus, GA 31908-4032
as soon as possible. In your letter, give us the following information:
•
account information: Your name and account number.
•
Dollar amount: The dollar amount of the suspected error.
•
Description of problem: If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
•
Within 60 days after the error appeared on your statement.
•
At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.

Version 2.0

You must notify us of any potential errors in writing. You may call us, but if you do we are not required
to investigate any potential errors and you may have to pay the amount in question.
What will happen after we receive your letter?
When we receive your letter, we must do two things:
1.
Within 30 days of receiving your letter, we must tell you that we received your letter. We will
also tell you if we have already corrected the error.
2.
Within 90 days of receiving your letter, we must either correct the error or explain to you why
we believe the bill is correct.
While we investigate whether or not there has been an error:
•
We cannot try to collect the amount in question, or report you as delinquent on the amount.
•
The charge in question may remain on your statement, and we may continue to charge you
interest charges on that amount.
•
While you do not have to pay the amount in question, you are responsible for the remainder of
your balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
•
If we made a mistake: You will not have to pay the amount in question or any interest charges or
other fees related to that amount.
•
If we do not believe there was a mistake: You will have to pay the amount in question, along
with applicable interest charges and fees. We will send you a statement of the amount you owe
and the date payment is due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled
between us. If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your rights if you are dissatisfied with your credit card purchases.
If you are dissatisfied with the goods or services that you have purchased with Your card, and you have
tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
You must have used your credit card for the purchase.
2.
You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at
Today Card, Attn: Billing Dispute P.O. Box 84032, Columbus, GA 31908-4032.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do
not pay, we may report you as delinquent.
C.
PAYMENTS
19.
PROMISE TO PAY: You promise to pay us all amounts due on your account, as provided in your
monthly statement. This includes amounts where you did not sign a purchase slip or other documents
for the transaction, and transactions you make without presenting your card. If you let someone else use

Version 2.0

your card or account, including an authorized user, you are responsible for all transactions that other
person makes.
20.
MINIMUM PAYMENTS: You may pay your entire balance at any time without penalty. You must
pay the minimum payment each billing cycle by the payment due date.
• If the new balance shown on your statement for any billing cycle is less than $30.00, the
minimum payment for that cycle will equal the new balance.
• If the new balance for any billing cycle equals or exceeds $30.00, the minimum payment for
that cycle will be the greater of:
o $30.00 or
o the sum of:
▪ (1) five percent (5%) of the new balance (subtracting any unpaid interest
charges or unpaid fees for the current billing cycle); plus
▪ (2) the total of any unpaid interest charges and unpaid fees.
Plus, any unpaid Minimum Payments Due from earlier billing cycles and any amount of
your new balance that exceeds your credit limit.
You will not owe us any additional charge for early payment. You may pay more than the minimum
payment at any time without penalty. If you pay more than the minimum payment in one billing cycle,
you still must pay the full minimum payment in each billing cycle. You cannot increase your available
credit by paying more than the unpaid balance on the account.
21.
MAKING PAYMENTS: Each payment required under this Agreement must be made on or before
the payment due date shown on your monthly statement. You must pay us in U.S. dollars, by electronic
payment (ACH or debit card) or by mailing your personal check or money order, along with the payment
stub from your statement, to the address shown on that statement. Do not send cash. If you do not
follow these instructions, we may not be able to credit the payment for up to five (5) business days after
we receive it. All payments on the account received by 5:00 p.m. during our normal business day at the
address shown on your statement are considered to have been made on the date received at that
address. We will apply your payments to the unpaid balance of the account in the order and manner we
decide, unless restricted by an applicable law.
22.
POSTDATED CHECKS AND IRREGULAR PAYMENTS: You agree that we will not examine any
payment check to confirm that it is not postdated, and that we may deposit any postdated check for
payment to us on the day we receive it. Any payment submitted in offer of settlement of a disputed
debt, including any check containing a notation such as “paid in full,” must be sent to the following
address: P.O. Box 2166, Columbus, GA 31902-2166. If you do not forward any check or other payment
marked “paid in full” to the above address, we can accept late payments or partial payments, or checks
or other payments marked with similar notations, without losing any of our rights under this Agreement,
including our right to seek payment of the full balance of your account.
23.
CREDIT BALANCES: We may reject any payment that creates or adds to a credit balance on your
account. Any credit balance we allow will not be available until your payment has cleared, and we may
reduce the amount of any credit balance by any new purchases. You can write to the address provided
on your statement or call Customer Service to request a refund of any available credit balance.
D.
LEGAL DISCLOSURES
24.
ARBITRATION AGREEMENT:
Both parties to this Agreement voluntarily agree to arbitrate any claim, as defined below, covered by
this Agreement, and thereby waive any right to a jury trial or court proceedings or participate in a class
action unless this arbitration provision is rejected as explained below. This arbitration provision does not
apply to “covered borrowers” as defined in the Military Lending Act.

Version 2.0

READ THIS ARBITRATION PROVISION CAREFULLY AS IT WILL HAVE A SUBSTANTIAL IMPACT ON HOW
LEGAL CLAIMS ARE RESOLVED. YOU HAVE THE RIGHT TO REJECT THIS ARBITRATION PROVISION AS
DESCRIBED BELOW.
If you do not reject this Arbitration Provision and a Claim is arbitrated, neither you nor we will have the
right to: (1) have a court or a jury decide the Claim; (2) engage in information-gathering (discovery) to
the same extent as in court; (3) participate in a class action, private attorney general or other
representative action in court or in arbitration; or (4) join or consolidate a Claim with claims of any other
person. The right to appeal is more limited in arbitration than in court and other rights in court may be
unavailable or limited in arbitration.
(a) Special Definitions: As used in the Arbitration Provision, the terms “we,” “us” and “our” mean Capital
Community Bank and its successors and assigns and any of its employees, officers and directors. “You”
means you the cardholder(s) and any authorized users.
(b) Your Right to Reject: If you don’t want this Arbitration Provision to apply, you may reject it by
mailing us a written rejection notice which contains all of the following: (i) the date of this Agreement;
(ii) your names, addresses and phone numbers; and (iii) a statement that you reject the Arbitration
Provision of this Agreement. The rejection notice must be sent by certified mail, return receipt
requested, to P.O. Box 84032, Columbus, GA 31908-4032. A rejection notice is only effective if it is
signed by you and if we receive it within sixty (60) days after the date of this Agreement. If you reject
this Arbitration Provision, it will not affect any other provision of this Agreement. If you don’t reject this
Arbitration Provision, it will be effective as of the date of the Agreement.
(c) Federal Arbitration Act: The parties agree and acknowledge that this Arbitration Provision and this
Agreement evidence a transaction involving interstate commerce and, therefore, a federal statute, the
Federal Arbitration Act (Title 9 of the United States Code) (“FAA”), shall govern the interpretation and
enforcement of this Arbitration Provision and proceedings pursuant thereto. To the extent state law is
applicable under and is not preempted by the FAA, the law of the state applicable under the paragraph
of this Agreement titled “Governing Law” shall apply.
(d) What Claims Are Covered: “Claim” means any claim, dispute or controversy between you and us,
whether preexisting, present or future, that in any way arises from or relates to this Agreement. “Claim”
has the broadest possible meaning, and includes initial claims, counterclaims, cross-claims and thirdparty claims, federal, state, local and administrative claims and claims which arose before the effective
date of this Arbitration Provision. It includes disputes based upon contract, tort, consumer rights, fraud
and other intentional torts, constitution, statute, regulation, ordinance, common law and equity and
claims for monetary damages and injunctive or declaratory relief. “Claim” includes any dispute or
controversy about the validity, enforceability, coverage or scope of this Arbitration Provision or any part
thereof, to the extent permitted by law.
(e) Electing Arbitration; Starting an Arbitration Proceeding: Either you or we may elect to arbitrate a
Claim by giving the other party written notice of the intent to arbitrate the Claim or by filing a motion to
compel arbitration of the Claim. This notice may be given before or after a lawsuit has been filed
concerning the Claim or with respect to other Claims brought later in the lawsuit, and it may be given by
papers filed in the lawsuit.
(f) Choosing the Administrator: The arbitration administrator will be: American Arbitration Association
(“AAA”), 1633 Broadway, 10th Floor, New York, NY 10019, www.adr.org 1-800-778-7879; or JAMS, 620
Eight Avenue, 34th Floor, New York, NY 10018, www.jamsadr.com, 1-800-352-5267. You may contact
these organizations directly if you have any questions about the way they conduct arbitrations or want
to obtain a copy of their rules and forms (which are also available on their websites). However, if the
AAA and JAMS are unable or unwilling to serve as administrator, the parties may agree upon another

Version 2.0

administrator or, if they are unable to agree, a court shall select the administrator or arbitrator. No
company may serve as administrator, without the consent of all parties, if it adopts or has in place any
formal or informal policy that is inconsistent with and purports to override the terms of the Class Action
Waiver in this Arbitration Provision.
(g) The Arbitrator: A single arbitrator will be appointed by the administrator and must be a practicing
attorney with ten or more years of experience or a retired judge.
(h) Class Action Waiver: Notwithstanding any other provision of this Agreement, neither you nor we
will have the right: (a) to participate in a class action, private attorney general action or other
representative action in court or in arbitration, either as a class representative or class member; or (b) to
join or consolidate Claims with claims of any other persons (thus, Claims brought by or against one
Customer (or Co-Customer) may not be joined or consolidated in the arbitration with Claims brought by
or against any other Customer). No arbitrator shall have authority to conduct any arbitration in
violation of this provision or to issue any relief that applies to any person or entity other than you and/or
us individually. If the Class Action Waiver is limited, voided or found unenforceable, then this Arbitration
Provision (except for this sentence) shall be null and void with respect to such proceeding, subject to the
right to appeal the limitation or invalidation of the Class Action Waiver. The parties acknowledge and
agree that under no circumstances will a class action be arbitrated.
(i) Location of Arbitration: Any arbitration hearing that you attend must take place at a location
reasonably convenient to your residence.
(j) Cost of Arbitration: At your written request, we will pay all filing, hearing and/or other fees charged
by the administrator and arbitrator to you for Claim(s) asserted by you in an individual arbitration after
you have paid an amount equivalent to the fee, if any, for filing such Claim(s) in state or federal court
(whichever is less) in the judicial district in which you reside. In addition, the administrator may have a
procedure whereby you can seek a waiver of fees charged to you by the administrator and arbitrator.
We will always pay any fees or expenses that we are required to pay by law or the administrator’s rules
or that we are required to pay for this Arbitration Provision to be enforced. We will not ask you to pay or
reimburse us for any fees we pay the Administrator.
(k) Severability and Survival: If any part of this Arbitration Provision, other than the Class Action Waiver,
is deemed or found to be unenforceable for any reason, the remainder shall be enforceable. This
Arbitration Provision shall survive the repayment of all amounts owed under this Agreement, any legal
proceeding and any bankruptcy by you, to the extent consistent with applicable bankruptcy law.
(l) Small Claims Courts. All parties retain the right to seek adjudication in a small claims court for
disputes within the scope of such court’s jurisdiction.
25.
CHANGE IN TERMS: We may change any term of this Agreement or add new terms to this
Agreement at any time upon notice to you as required by law. At our option, any change will apply both
to new activity and to your outstanding balance, as permitted by law.
26.
CHANGES TO YOUR AGREEMENT: At any time, we may add, delete or change any term of this
Agreement, unless the law prohibits us from doing so. We will give you notice of any changes as
required by law. We may notify you of changes on your statement or in a separate notice. Our notice will
tell you when and how the changes will take effect. The notice will describe any rights you have in
connection with the changes. Your variable APR can go up or down as the index for the rate goes up or
down.
27.
NOTICES: Any notices given under this Agreement or relating to the account will be effective
only if given in writing to us at P.O. Box 84032, Columbus, GA 31908-4032, and to you at your current
address or email address shown on our records. You agree to notify us immediately if your address or
email address changes from what you provided on your application.

Version 2.0

28.
ASSIGNMENT: This Agreement will be binding on, and benefit, any of your and our successors
and assigns. You may not sell, assign or transfer your account or this Agreement to someone else
without our written permission. We may sell, assign or transfer your account and this Agreement
without your permission and without prior notice to you. Any assignee or assignees will take our place
under this Agreement. You must pay them and perform all of your obligations to them and not us. If you
pay us after we notify you that we have transferred your account or this Agreement, we can return the
payment to you, forward the payment to the assignee, or handle it in another way that is reasonable.
29.
WAIVER: We will not lose any of our rights if we delay or choose not to take any action for any
reason. We may waive our right without notifying you. For example, we may waive your interest charges
or fees without notifying you and without losing our right to charge them in the future.
30.
GOVERNING LAW; SEVERABILITY: This Agreement and your account will be governed by
(1) federal law, and (2) to the extent not preempted by federal law, the laws of Utah, without regard to
its conflicts of law provisions. We accepted this Agreement in Utah. If any provision of this Agreement
conflicts with the law, you agree the provision will be viewed as if it was amended to comply with the
law. If that is not possible, then only the provision that conflicts with the law will be deleted. The
remaining provisions of this Agreement will remain effective.
31.
STATE LAW DISCLOSURES:
Maryland Residents: You have the right under section 12-510 of the Commercial Law Code to receive
an answer to a written inquiry concerning the status of your account. Finance charges will be imposed in
amounts or at rates not in excess of those permitted by law.
New Jersey Residents: Because certain provisions of this Note are subject to applicable laws, they may
be void, unenforceable or inapplicable in some jurisdictions. None of these provisions, however, is void,
unenforceable or inapplicable in New Jersey.
Wisconsin Residents: No provision of a marital property agreement, a unilateral statement under
section 766.59 or a court decree under section 786.70 adversely affects the interest of the creditor
unless the creditor, prior to the time the credit is granted, is furnished a copy of the agreement,
statement or decree or has actual knowledge of the adverse provision when the obligation to the
creditor is incurred.
Cardmembers: Your signature (including any digital or electronic signature), address and the date on
the application, or other evidence of indebtedness, or your acceptance of these Terms and Conditions
through an electronic transmission to us represents your signature, address and the date on these
Terms and Conditions, which are incorporated herein by reference.
Retail Installment Credit Agreement
NOTICE TO THE BUYER - 1. DO NOT SIGN THIS CREDIT AGREEMENT BEFORE YOU READ IT OR IF IT
CONTAINS BLANK SPACES. 2. YOU ARE ENTITLED TO A COMPLETELY FILLED IN COPY OF THIS CREDIT
AGREEMENT. 3. YOU MAY AT ANY TIME PAY MORE THAN THE MINIMUM PAYMENT, OR YOUR ENTIRE
BALANCE IN FULL WITHOUT INCURRING ANY ADDITIONAL CHARGE FOR PREPAYMENT.

Version 2.0

